CERTIFICATE OF COMPLIANCE
NO. 20-

SHERRY HERNANDEZ,
Petitioner
v.
PNMAC MORTGAGE OPPORTUNITY
FUND INVESTORS, LLC;
PENNYMAC LOAN SERVICES, LLC;
and DOES 1-20, Inclusive,
Respondents

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains 8753 words, excluding the parts of the petition
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 20, 2020

